                                                    December 22, 2005




MEMORANDUM TO:                     Luis A. Reyes
                                   Executive Director for Operations

                                   Eliott Brenner
                                   Director, Office of Public Affairs



FROM:                              Stephen D. Dingbaum/RA/
                                   Assistant Inspector General for Audits


SUBJECT:                           MEMORANDUM REPORT: AUDIT OF NRC’S
                                   CONTROLS OVER VIDEO NEWS RELEASES
                                   (OIG-06-A-05)


As part of the Office of the Inspector General’s (OIG) issue area monitoring
program, auditors identified an issue that warrants your attention. Auditors
determined that NRC does not have controls to achieve compliance with Federal
requirements concerning video news releases. Video news releases are
complete audiovisual presentations produced by non-news organizations that are
intended to be indistinguishable from traditional television news reports.

NRC can prevent the inadvertent or deliberate production of video news releases
that do not conform to Federal requirements and might appear to promote the
nuclear industry by (1) developing a written policy on video news releases that
designates a central authority to enforce this policy and (2) informing all offices
involved with audiovisual productions about requirements.

BACKGROUND

In February 2005, the Government Accountability Office (GAO) issued a
memorandum titled, “Prepackaged News Stories,”1 to Federal agency and
department heads. This document stated that the Government may not use
appropriated funds for publicity or propaganda purposes, and it cautioned that
GAO had recently identified several prepackaged news stories produced and


1
    GAO: B-304272, “Prepackaged News Stories,” February 17, 2005.
distributed by certain Federal agencies that violated this prohibition. The
violations occurred because each of the agencies failed to provide clear
disclosure within the prepackaged news stories that the material was prepared
by or in cooperation with their agency.

Prepackaged news stories, also referred to as video news releases, are
complete, audiovisual presentations that are intended to be indistinguishable
from traditional television news reports. These stories may include actors hired
to portray reporters and may be accompanied by scripts suggested to introduce
the story for broadcast. These productions are sponsored by such entities as
corporations, Government agencies, and non-government organizations, and are
sometimes aired, unedited, by television news programs without identification of
the original producer or sponsor.

Subsequent to the GAO memorandum, the Office of Management and Budget
(OMB) issued two followup memoranda to Federal agency and department
heads.2 The first conveyed OMB’s position that GAO was incorrect in viewing
the recent Government video news releases as inappropriate. However, the
second memorandum reported that following OMB’s earlier memo, Congress
passed a law stating specifically that no Federal funds may be used by an
executive branch agency to produce any prepackaged news story intended for
broadcast or distribution in the United States unless the story includes a clear
notification within the text or audio that the story was prepared or funded by that
executive branch agency.

This topic is of particular importance to NRC because of its responsibility under
the Energy Reorganization Act of 1974 to regulate, but not promote, the civilian
use of nuclear materials.

PURPOSE

The audit’s objective was to determine whether NRC has implemented measures
to comply with Federal law concerning the development of video news releases.

FINDING

NRC does not have controls to achieve compliance with Federal law concerning
video news releases. Specifically, NRC:

    •   Does not have a process to ensure that video news releases include the
        required agency identifier.
    •   Has not conducted a sufficient review to assess its compliance with this
        requirement.


2
 M-05-10, “Use of Government Funds for Video News Releases,” March 11, 2005, and M-05-20, “Statutory
Provision on Video News Releases,” July 21, 2005.


                                                 2
This situation exists because NRC (1) does not have a written policy addressing
video news releases that describes the identification requirement and designates
a central authority to impose this requirement and (2) did not contact all offices
potentially involved with audiovisual productions to communicate the
requirement. As a result, NRC risks diminished public confidence by producing
an inappropriate video news release that, unmarked, could appear to promote
nuclear power.

STATUTORY PROVISION ON VIDEO NEWS RELEASES

In May 2005, President Bush signed into law H.R. 1268, the Emergency
Supplemental Appropriations for FY 2005, Public Law 109-13. Among other
provisions, this law prohibits funds from being used by a Federal agency to
produce any prepackaged news story, unless the story includes a clear
notification that it was prepared or funded by that Federal agency.

To execute this law, OMB provided guidance concerning the Government’s
communications with the public. OMB Memorandum M-05-20, dated July 21,
2005, stipulates that Government communications with the public must adhere to
the highest legal and ethical standards. The document also requires that
Executive Branch agencies must fully comply with applicable laws and should
conduct such review as is necessary to ensure that their practices are fully
compliant.

NRC DOES NOT HAVE CONTROLS TO ACHIEVE COMPLIANCE

NRC does not have controls to achieve compliance with Federal regulations
concerning the development of video news releases. Specifically, NRC (1) does
not have a process to ensure that video news releases include the required
agency identifier and (2) has not conducted a sufficient review to determine
whether it is in compliance with this requirement.

NRC communications officials expressed high ethical standards regarding the
need to include an agency identifier within video news releases. They stated that
NRC has never issued a video news release and does not intend to do so in the
future. According to an Office of Public Affairs official, if the agency were ever to
produce such a video, the production would be properly identified as to its origin.

However, NRC has no process to ensure that, should an office opt to develop a
video news release, the product would include the necessary identifier. NRC
communications officials also acknowledged they are not aware of every
audiovisual production that NRC offices produce.




                                         3
Furthermore, NRC conducted an insufficient review to determine whether it is in
compliance with the identification requirement. Action taken was limited to
communications between the Office of the General Counsel (OGC) and two other
agency offices. These communications consisted of OGC’s (1) provision of OMB
guidance that preceded Public Law 109-13 and the GAO memorandum to the
Director, Office of Public Affairs, and (2) discussion between an OGC attorney
and the Director of Communications and between the General Counsel and the
Director, Office of Public Affairs. During these discussions, OGC was informed
that NRC does not produce video news releases.

INSUFFICIENT POLICY AND COMMUNICATION

Weaknesses exist in NRC’s controls over the production of video news releases
because NRC:

   ¾ Does not have a written policy specifically addressing video news releases
     that designates a central authority to enforce this policy.
   ¾ Did not contact all offices involved with audiovisual productions to
     communicate Federal requirements.

      NO POLICY ON VIDEO NEWS RELEASES

The agency does not have written policies specifically addressing video news
releases. OIG identified two management directives that contain relevant
information but lack specifics that would ensure that Federal requirements
concerning identification are imposed. Furthermore, there is no clear delineation
of which office would be responsible for reviewing video news releases to ensure
compliance.

Management Directive (MD) 5.5, “Public Affairs Program,” issued in 1999,
provides NRC's policy and process for preparing and issuing news releases,
however, this guidance focuses only on written news releases. According to this
policy, the Office of Public Affairs is responsible for issuing all NRC news
releases and posting them to NRC’s external Web site. The document contains
no information concerning video news releases.

One objective of MD 3.15, “Audiovisual and Photographic Services,” is to
preclude the use of such services to promote the agency and to ensure that NRC
does not develop audiovisual products used to influence pending legislation,
promote product sales, or promote status of various industries. However, this
guidance does not address video news releases specifically or offer instruction
on the need to include an agency identifier in audiovisual productions.




                                        4
Furthermore, although MD 3.15 states that the Director, Division of Freedom of
Information and Publications Services, Office of Administration, is responsible for
approving plans, before obligation of funds, for all audiovisual productions, this
review does not occur. The guidance in MD 3.15, published in 1991, is outdated
and this position and entity no longer exist. According to an Office of
Administration employee, NRC staff do not follow the review requirement, in
some cases because they are unaware and in other cases because they do not
want to cause project delays.

Another shortcoming with MDs 5.5 and 3.15 is that neither document clearly
delineates which office would be responsible for reviewing these productions for
compliance with Federal requirements. While the Office of Public Affairs is
responsible for providing oversight for print news releases, the Office of
Administration is assigned responsibility for reviewing all audiovisual production
plans.

       COMPLIANCE REVIEW WAS INSUFFICIENT

The agency’s review for compliance was insufficient because OGC did not
contact all offices that could be involved with audiovisual productions to make
sure they were aware of Public Law 109-13 requirements. Although OGC’s
actions provided OGC staff with reassurance that some agency communications
officials intend to abide by Federal requirements, this effort does not assure that
all offices are aware of the latest requirements. It also does not provide
assurance of compliance in the future.

UNMARKED VIDEO NEWS RELEASES COULD APPEAR PROMOTIONAL

Due to its lack of controls to achieve compliance with Federal requirements
concerning video news releases, NRC risks diminished public confidence should
NRC produce an inappropriate video news release that, because it does not
include the requisite notification within the text or audio, could appear to promote
nuclear power. As part of its regulatory role, NRC is to refrain from promoting
any aspect of the nuclear industry.

RECOMMENDATIONS

OIG recommends that the Director, Office of Public Affairs:

1.   Establish a written NRC policy concerning video news releases that defines
     identification requirements and designates a central authority to verify
     application of the requirements.

2.   Communicate the Federal video news release policy to all NRC offices.




                                         5
SCOPE AND METHODOLOGY

To accomplish the audit’s objective, OIG reviewed MD 5.5 and MD 3.15, NRC
public affairs guidance which appears on the NRC Intranet, and Federal
guidance pertaining to the development of video news releases. Auditors
interviewed the Director of Communications; the Director, Office of Public Affairs;
the General Counsel; and Office of Administration staff. This work was
conducted from August 2005 through October 2005, in accordance with generally
accepted Government auditing standards and included a review of internal
controls related to the objective of this audit. The work was conducted by
Beth Serepca, Team Leader; Judy Gordon, Audit Manager; Vicki Foster,
Sr. Management Analyst; and Christopher Lange, Summer Intern.

Please provide information on the actions taken in response to the
recommendations directed to your office by January 31, 2006. Actions taken or
planned are subject to OIG followup. See attached for instructions for
responding to OIG report recommendations.

If you have any questions or concerns regarding this report, please contact me at
415-5915 or Beth Serepca at 415-5911.

cc:   Chairman Diaz
      Commissioner McGaffigan
      Commissioner Merrifield
      Commissioner Jaczko
      Commissioner Lyons




                                        6
Distribution

John T. Larkins, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste
G. Paul Bollwerk, III, Chief Administrative Judge, Atomic Safety andT
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Jesse L. Funches, Chief Financial Officer
Janice Dunn Lee, Director, Office of International Programs
William N. Outlaw, Director of Communications
William N. Outlaw, Acting Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
William F. Kane, Deputy Executive Director for Reactor
  and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Research,
  State and Compliance Programs, OEDO
Jacqueline E. Silber, Deputy Executive Director for Information Services
   and Administration, and Chief Information Officer, OEDO
William M. Dean, Assistant for Operations, OEDO
Timothy F. Hagan, Director, Office of Administration
Michael R. Johnson, Director, Office of Enforcement
Guy P. Caputo, Director, Office of Investigations
Edward T. Baker, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Jack R. Strosnider, Director, Office of Nuclear Material Safety and Safeguards
James E. Dyer, Director, Office of Nuclear Reactor Regulation
Carl J. Paperiello, Director, Office of Nuclear Regulatory Research
Janet R. Schlueter, Director, Office of State and Tribal Programs
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
William D. Travers, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Bruce S. Mallett, Regional Administrator, Region IV




                                       7
